No.20-_ _ _

IN THE
SUPREME COURT OF THE UNITED STATES

CORDARRIUS BONDS,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner, Cordarrius Bonds, moves this Court for leave to proceed in forma

pauperis. In the lower courts, h e was found indigent and allowed to proceed in forma
pauperis and was appointed counsel under the Criminal Justice Act, 18 U.S.C.
ยง 3006A.

~0~
JNIFNiLEi COFFIN

November 12, 2020

Assistant Federal Defender
F ederal Defender Services
of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, Tennessee 37929
(865) 637-7979

